No. 20-1693

In the

Supreme Court of the United States
ERICK ALLEN OSBY,
Petitioner,
v.
UNITED STATES OF AMERICA,

Respondent.

CERTIFICATE OF SERVICE
I, Christopher D. Man, counsel for Amici Curiae
Former Federal District Court Judges and Law Professors, hereby certify that on this 7th day of July,
2021, I caused the accompanying Amici Brief in Support of Petitioner to be served by overnight commercial carrier on the following counsel:
Caroline Swift Platt
Counsel of Record for Petitioner
Office of the Federal Public Defender
1650 King Street, Suite 500
Alexandria, VA 22314
703-600-0810
caroline_platt@fd.org

Elizabeth B. Prelogar
Counsel of Record for Respondent
Acting Solicitor General
United States Department of Justice
950 Pennsylvania Avenue, N.W.
Washington, DC 20530-0001
202-514-2217
SupremeCtBriefs@USDOJ.gov
An electronic courtesy copy has also been served on
all participants with email addresses listed on the
docket.
/s/ Christopher D. Man
CHRISTOPHER D. MAN
Counsel of Record
WINSTON & STRAWN LLP
1901 L Street, N.W.
Washington, DC 20036
202-282-5622
CMan@winston.com

